      DEPARTMENT OF HEALTH & HUMAN SERVICES                                 Office of Inspector General


                                                                            Washington, D.C. 20201




November 12, 2010

TO:            Thomas R. Frieden, M.D., M.P.H.
               Director
               Centers for Disease Control and Prevention


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of the Centers for Disease Control and Prevention’s Compliance With
               Appropriations Laws and Acquisition Regulations—Contractor D
               (A-04-09-01066)


The attached final report provides the results of our review of the Centers for Disease Control
and Prevention’s (CDC) compliance with appropriations laws and acquisition regulations. This
audit, which we initiated as a result of a congressional request, is one in a series of audits of
CDC’s contracting practices. It focuses on an information technology service contract awarded
to a company referred to as “Contractor D.”

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector General
(OIG) post its publicly available reports on the OIG Web site. Accordingly, this report will be posted
at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov.
We look forward to receiving your final management decision within 6 months. Please refer to
report number A-04-09-01066 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




  REVIEW OF THE CENTERS FOR
    DISEASE CONTROL AND
PREVENTION’S COMPLIANCE WITH
    APPROPRIATIONS LAWS
       AND ACQUISITION
 REGULATIONS—CONTRACTOR D




                      Daniel R. Levinson
                       Inspector General

                       November 2010
                       A-04-09-01066
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

During fiscal years 2000 through 2009, the Centers for Disease Control and Prevention (CDC)
awarded more than $1.3 billion in information technology (IT) service contracts to help
accomplish its mission. Like other Federal agencies, CDC is required to follow appropriations
laws and the Federal Acquisition Regulation when acquiring services with appropriated funds.

This audit, which we initiated as a result of a congressional request, is one in a series of audits of
CDC’s contracting practices. It focuses on a 2003 IT service contract that CDC awarded to a
company referred to in this report as “Contractor D.” Under the contract, CDC awarded 96 task
orders totaling $569 million to Contractor D from 2003 to 2009. Our review covered six of these
task orders. The six task orders generally called for severable services, which are services that
are recurring and continuing in nature and that are not intended to provide a specific end product,
such as a report. The six task orders were valued at $179 million.

OBJECTIVE

Our objective was to determine whether CDC’s IT service contract and selected task orders
awarded to Contractor D complied with appropriations laws and acquisition regulations with
respect to competition, inherently governmental functions, personal services, contract funding,
and pricing.

SUMMARY OF FINDINGS

CDC’s IT service contract and six sampled task orders awarded to Contractor D complied with
acquisition regulations with respect to competition, inherently governmental functions, and
personal services. However, the task orders did not fully comply with appropriations laws and
acquisition regulations with respect to contract funding and pricing. Specifically, for three of the
six task orders, CDC used annual appropriations to pay for expenses incurred after the
appropriations’ 1-year period of availability had expired. Additionally, CDC did not sufficiently
document price or cost analyses under all six task orders.

These deficiencies occurred because CDC’s policies and procedures did not address funding
requirements for severable service contracts. Furthermore, CDC’s policies and procedures were
inadequate to ensure the establishment of fair and reasonable prices. As a result, CDC violated
the bona fide needs statute by expending $1.6 million of annual appropriations beyond their
period of availability and did not ensure that the pricing of task orders and modifications totaling
$73 million was fair and reasonable.




                                                  i
RECOMMENDATIONS

We recommend that CDC:

   •   determine whether the $1,599,612 expended outside the 1-year period of availability violated
       the Antideficiency Act and, if so, report the violation as required;

   •   develop and implement policies and procedures to address compliance with appropriations
       statutes and acquisition regulations regarding obligating and expending funds; and

   •   implement and monitor the effectiveness of policies and procedures for documenting
       determinations of fair and reasonable pricing.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS

In its comments on our draft report, CDC described its corrective actions to address each of our
recommendations. The complete text of CDC’s comments is included as the Appendix.




                                                ii
                                                  TABLE OF CONTENTS


                                                                                                                                    Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              Contracting Responsibilities .............................................................................. 1
              Federal Laws and Regulations ........................................................................... 1
              Contract Awarded to Contractor D .................................................................... 3

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 3
               Objective ............................................................................................................ 3
               Scope .................................................................................................................. 3
               Methodology ...................................................................................................... 3

FINDINGS AND RECOMMENDATIONS .......................................................................... 5

          TASK ORDER FUNDING............................................................................................ 5
               Federal Laws and Regulations ........................................................................... 5
               Annual Appropriations Used Beyond Period of Availability ............................ 6
               Inadequate Policies and Procedures on Funding Limitations ............................ 7
               Violations of the Bona Fide Needs Statute ........................................................ 7

          TASK ORDER PRICING.............................................................................................. 7
               Federal Regulations ........................................................................................... 7
               Inadequate Documentation of Price or Cost Analyses ...................................... 7
               Inadequate Policies and Procedures on Documentation Requirements ............. 8
               No Assurance of Fair and Reasonable Pricing .................................................. 8

          RECOMMENDATIONS ............................................................................................... 8

          CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS ............ 8

APPENDIX

          CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS




                                                                    iii
                                        INTRODUCTION

BACKGROUND

The mission of the Centers for Disease Control and Prevention (CDC) is to promote health and
quality of life by preventing and controlling disease, injury, and disability. To help accomplish
its mission, CDC contracts for certain information technology (IT) services, such as automated
information systems design, computer-aided design, and programming services. During fiscal
years (FY) 2000 through 2009, CDC funding for IT service contracts increased from
$110 million to $157 million per year, for a total of more than $1.3 billion during the 10-year
period.

This audit, which we initiated as a result of a congressional request, is one in a series of audits of
CDC’s contracting practices.

Contracting Responsibilities

CDC’s Procurement and Grants Office (PGO) is responsible for the award, administration, and
closeout of all CDC contracts. Within PGO, contracting officers are responsible for ensuring
effective contracting; ensuring compliance with contract terms; ensuring that contractors receive
impartial, fair, and equitable treatment; and determining the adequacy of contractor performance.

CDC’s centers, institutes, and offices (program offices) are the primary initiators of service
contracts. Contracting officers delegate certain administrative duties to program office
employees referred to as “contracting officers’ technical representatives” (project officers) and
“technical monitors.” As the contracting officers’ authorized representatives for administering
contracts and task orders, respectively, project officers and technical monitors are responsible for
ensuring proper Government oversight of contractors’ performance. Project officers and
technical monitors are not empowered to make any contractual commitments or to authorize any
contractual changes on the Government’s behalf.

CDC’s Financial Management Office is responsible for processing payments to contractors and
for maintaining records of invoices, payments, and supporting documents.

Federal Laws and Regulations

Federal agencies are required to follow appropriations laws and the Federal Acquisition
Regulation (FAR) when acquiring supplies and services with appropriated funds. Selected
requirements are summarized below.

Competition

FAR 6.101(a) requires that contracting officers promote and provide for full and open
competition in soliciting offers and awarding Government contracts. FAR 16.505(b)(1)(i)
requires, with certain limited exceptions, that contracting officers provide each awardee under a




                                                  1
multiple-award, indefinite-delivery, indefinite-quantity contract a fair opportunity to be
considered for each order exceeding $3,000. 1

Inherently Governmental Functions

FAR 7.503(a) states that “[c]ontracts shall not be used for the performance of inherently
governmental functions.” Inherently governmental functions include determining agency policy,
such as the content and application of regulations; determining budget policy, guidance, and
strategy; and directing and controlling Federal employees.

Personal Services

FAR 37.104 prohibits agencies from awarding personal service contracts unless specifically
authorized by statute. The FAR characterizes a personal service contract as one in which an
employer-employee relationship is created between the Government and contractor personnel.
This relationship may be created by the contract terms or by subjecting contractor personnel to
relatively continuous supervision and control by agency employees during contract performance.

Contract Funding

Pursuant to the bona fide needs statute (31 U.S.C. § 1502), agencies generally are required to
fund severable service contracts with funds that are current and available for the year in which
performance takes place. 2 The bona fide needs statute requires that “[t]he balance of an
appropriation or fund limited for obligation to a definite period is available only for payment of
expenses properly incurred during the period of availability or to complete contracts properly
made within that period ….” However, pursuant to 41 U.S.C. § 253l, an agency may enter into a
contract for severable services for a period that begins in one FY and ends in the next FY if the
contract period does not exceed 1 year. Such contracts may be funded entirely with funds
available in the earlier year.

The FAR reflects the bona fide needs statute, as well as the statutory exception. FAR 32.703-3
states that “[a] contract that is funded by annual appropriations may not cross fiscal years, except
in accordance with statutory authorization …” or when the contract is for nonseverable services.

Fair and Reasonable Pricing

FAR 4.801 states that documentation in the contract files must be, among other things, sufficient
to support actions taken and to provide information for reviews and investigations.

FAR 15.402 states that “[c]ontracting officers must—(a) [p]urchase supplies and services from
responsible sources at fair and reasonable prices.” FAR 15.404-1 states that contracting officers
are responsible for evaluating the reasonableness of the offered prices and may use price analysis

1
    The fair opportunity threshold was changed from $2,500 to $3,000 in 2006 (71 Fed. Reg. 57363 (Sept. 28, 2006)).
2
 Severable services are services that are recurring and continuing in nature and that are not intended to provide a
specific end product, such as a report.


                                                          2
or cost analysis to ensure that the final price is fair and reasonable, depending on the complexity
and circumstances of the acquisition.

Contract Awarded to Contractor D

In 2003, CDC awarded task order contracts to two companies for the ongoing acquisition of “a
broad array of data, information, information technology, and information system support on an
‘as-needed’ basis.” Under the two contracts, CDC issued 126 task orders totaling almost
$670 million.

CDC awarded 96 task orders totaling $569 million to 1 of the 2 contractors (Contractor D) from
2003 to 2009. 3 Contractor D is a global security company, employing approximately 120,000
people, which provides services in such areas as aerospace, electronics, shipbuilding, and
information systems.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CDC’s IT service contract and selected task orders
awarded to Contractor D complied with appropriations laws and acquisition regulations with
respect to competition, inherently governmental functions, personal services, contract funding,
and pricing.

Scope

Our audit covered CDC’s IT service contract with Contractor D (contract 200-2004-03409) and
six task orders awarded under the contract between July 1, 2004, and February 9, 2009. The six
task orders were valued at $179 million.

We did not review CDC’s overall internal control structure. We limited our internal control
review to obtaining an understanding of CDC’s policies and procedures for awarding and
administering contracts.

We performed our fieldwork at CDC in Atlanta, Georgia, from May 12, 2009, through March 31,
2010.

Methodology

To accomplish our objective, we:

       •   reviewed relevant Federal laws, regulations, and guidance;




3
    The second contractor is the subject of another report (A-04-09-06108).


                                                           3
    •   gained an understanding of CDC’s policies and procedures related to contract award and
        administration;

    •   gained an understanding of the contract administration responsibilities of PGO and
        program officials;

    •   conducted a risk assessment of the 96 task orders awarded to Contractor D and
        judgmentally selected 4 6 task orders (task orders 17, 21, 24, 33, 35, and 55) for detailed
        review;

    •   reviewed documentation maintained by PGO, program offices, and the Financial
        Management Office related to the contract and the 6 task orders;

    •   reviewed the competitive procedures used to award the contract and the 6 task orders;

    •   interviewed CDC officials to gain an understanding of the types of services provided
        under the 6 task orders and the extent to which:

             o contractor personnel performed inherently governmental functions,

             o CDC employees provided direction and supervision to contractor personnel, and

             o other elements of personal services existed in contract administration;

    •   assessed the procedures used to fund and price the 6 task orders and related
        modifications;

    •   reviewed the terms and conditions of, and subsequent modifications to, the 6 task orders
        to determine whether annual appropriations were used beyond their period of availability;
        and

    •   reviewed CDC’s financial records to quantify the payments made using appropriations
        beyond their period of availability.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




4
 Our selection factors included whether the task orders were competed, whether Contractor D was the only bidder,
and whether the task orders potentially included inherently governmental activities. We also considered the dollar
value of the task orders.


                                                         4
                          FINDINGS AND RECOMMENDATIONS

CDC’s IT service contract and six sampled task orders awarded to Contractor D complied with
acquisition regulations with respect to competition, inherently governmental functions, and
personal services. However, the task orders did not fully comply with appropriations laws and
acquisition regulations with respect to contract funding and pricing. Specifically, for three of the
six task orders, CDC used annual appropriations to pay for expenses incurred after the
appropriations’ 1-year period of availability had expired. Additionally, CDC did not sufficiently
document price or cost analyses under all six task orders.

These deficiencies occurred because CDC’s policies and procedures did not address funding
requirements for severable service contracts. Furthermore, CDC’s policies and procedures were
inadequate to ensure the establishment of fair and reasonable prices. As a result, CDC violated
the bona fide needs statute by expending $1.6 million of annual appropriations beyond their
period of availability and did not ensure that the pricing of task orders and modifications totaling
$73 million was fair and reasonable.

TASK ORDER FUNDING

Federal Laws and Regulations

Pursuant to the bona fide needs statute (31 U.S.C. § 1502), agencies generally are required to
fund severable service contracts with funds that are current and available for the year in which
performance takes place. The bona fide needs statute requires that “[t]he balance of an
appropriation or fund limited for obligation to a definite period is available only for payment of
expenses properly incurred during the period of availability or to complete contracts properly
made within that period ….” However, pursuant to 41 U.S.C. § 253l, an agency may enter into a
contract for severable services for a period that begins in one FY and ends in the next FY if the
contract period does not exceed 1 year. Such contracts may be funded entirely with funds
available in the earlier year.

The FAR reflects the bona fide needs statute, as well as the statutory exception. FAR 32.703-3
states that “[a] contract that is funded by annual appropriations may not cross fiscal years, except
in accordance with statutory authorization …” or when the contract is for nonseverable services.

The Antideficiency Act (31 U.S.C. § 1341) provides that officers or employees of the
Government may not make or authorize an obligation in excess of the available funds or in
advance of appropriations. This Act requires agencies to report violations to the President and to
Congress, with a copy to the Comptroller General (31 U.S.C. § 1351).




                                                 5
Annual Appropriations Used Beyond Period of Availability

For three task orders for severable services, CDC used annual appropriations to pay for expenses
incurred after the appropriations’ 1-year period of availability had expired. 5

      •    In September 2004, CDC awarded task order 35 in the amount of $63,979,560 6 to
           provide management, analysis, and support to HIV/AIDS prevention data systems.
           Under the task order, services were to be provided during a 1-year base period
           (September 1, 2004, through August 31, 2005); two 1-year option periods ending
           August 31, 2007; and a 16-month option period ending December 31, 2008. CDC
           incrementally funded the option periods by using annual appropriations from FYs 2004
           through 2008 but did not properly fund the option period that extended into FY 2009.
           Specifically, CDC inappropriately funded $1,345,471 in costs incurred from September
           2007 through December 2008 with FYs 2004 through 2007 appropriations.

      •    In July 2004, CDC awarded task order 17 in the amount of $21,413,030 7 for information
           systems support for the National Center for HIV, STD, and TB Prevention. Under the
           task order, services were to be provided during a 1-year base period (July 1, 2004,
           through June 30, 2005) and two 1-year option periods ending June 30, 2007. CDC
           incrementally funded each period by using annual appropriations from FYs 2004 through
           2007. Although the task order ended on June 30, 2007, CDC paid for contractor services
           provided from July 2007 through October 2008 (16 months after the project end date).
           FY 2007 funds were available for expenses incurred from July 2007 through March
           2008; however, FY 2007 funds expired as of March 2008 based on the last obligation
           date of FY 2007 funding. CDC inappropriately used $249,770 of these expired FY 2007
           funds for costs incurred from April 2008 through October 2008.

      •    In July 2004, CDC awarded task order 24 in the amount of $26,907,587 8 for information
           systems support for bioterrorism preparedness activities. Under the task order, services
           were to be provided during a 1-year period (July 1, 2004, through June 30, 2005).
           Through modifications, CDC added a second period of performance spanning 19 months
           and ending March 8, 2007. CDC incrementally funded each period by using FYs 2004
           through 2006 appropriations. Contractor D billed CDC $4,371 for services provided
           from July 2007 through November 2008. CDC inappropriately used unexpended
           appropriations from FYs 2006 and 2007 to fund these expenses.



5
  The terms of the basic contract defined two types of task orders: “product” task orders and “term” task orders. Per
the contract, term task orders are for ongoing work with no identifiable end product (i.e., severable services). CDC
identified all six sampled task orders as “term” task orders. Our review of the task order statements of work also
suggests that the services were severable.
6
    The $63,979,560 included $55,495,243 for the original award and $8,484,317 for modifications.
7
    The $21,413,030 included $16,914,202 for the original award and $4,498,828 for modifications.
8
    The $26,907,587 included $8,109,112 for the original award and $18,798,475 for modifications.


                                                          6
Inadequate Policies and Procedures on Funding Limitations

CDC inappropriately expended annual appropriations beyond their 1-year period of availability
because it had not developed and implemented adequate policies and procedures to ensure
compliance with appropriations statutes and acquisition regulations on obligating and expending
funds. Specifically, CDC’s policies and procedures did not address funding requirements for
severable service contracts. CDC’s policies and procedures also did not address the funding of
contract extensions that cause periods of performance to exceed 1 year and did not prohibit the
use of prior-year appropriations for costs incurred in a subsequent year.

Violations of the Bona Fide Needs Statute

By extending the periods of performance for three task orders beyond 1 year, CDC expended
$1,599,612 of annual appropriations outside their 1-year period of availability and violated the
bona fide needs statute. Such expenditures will violate the Antideficiency Act if sufficient funds
from applicable appropriations are not available to cover the expenditures.

CDC could resolve the violations of the bona fide needs statute by adjusting its accounts
(assuming sufficient funds are available) and recording the expenditures against the correct
FY appropriations. This would require CDC to research the proper use of funds totaling
$1,599,612 and to determine the correct period of availability for those funds.

TASK ORDER PRICING

Federal Regulations

Contracting officers must purchase supplies and services from responsible sources at fair and
reasonable prices (FAR 15.402). Depending on the complexity and circumstances of the
acquisition, contracting officers may use price analysis or cost analysis to ensure that the final
price is fair and reasonable (FAR 15.404-1). Documentation in the contract files must be
sufficient to support the actions taken (FAR 4.801).

Inadequate Documentation of Price or Cost Analyses

CDC did not adequately document required price or cost analyses for the 6 sampled task orders
(2 original task orders 9 and 25 modifications applicable to all 6 task orders).

Although the six task order files contained “Determination of Price/Cost Reasonableness”
memos and email correspondence between contracting officers and project officers or technical
monitors, this documentation did not sufficiently support the conclusions reached about price or
cost reasonableness. The “Determination of Price/Cost Reasonableness” memos stated that the
prices were determined to be fair and reasonable through comparisons with prices for similar
work under other task orders. However, these memos did not indicate which other task orders
were reviewed.


9
    Task orders 24 and 33.


                                                  7
Similarly, email correspondence in the task order files documented that project officers or
technical monitors had agreed with the reasonableness of the proposed pricing. However, the
correspondence did not indicate how the project officers or technical monitors had reached their
conclusions.

Inadequate Policies and Procedures on Documentation Requirements

CDC’s policies and procedures were inadequate to ensure sufficient documentation of price or
cost analyses. Although CDC’s policies and procedures required contracting officers to adhere
to the FAR’s provisions on contract pricing, the policies did not address the FAR requirement
that sufficient documentation be included in the contract files to support the actions taken to
ensure fair and reasonable pricing.

Contracting officers told us that CDC was in the process of developing new documentation
procedures to support pricing decisions.

No Assurance of Fair and Reasonable Pricing

Without adequate documentation of price or cost analyses, CDC could not demonstrate that
prices were fair and reasonable. The lack of adequate documentation prevented independent
verification that proposed prices totaling $73 million for 2 task order awards and 25
modifications applicable to all 6 task orders were fair and reasonable.

RECOMMENDATIONS

We recommend that CDC:

   •   determine whether the $1,599,612 expended outside the 1-year period of availability violated
       the Antideficiency Act and, if so, report the violation as required;

   •   develop and implement policies and procedures to address compliance with appropriations
       statutes and acquisition regulations regarding obligating and expending funds; and

   •   implement and monitor the effectiveness of policies and procedures for documenting
       determinations of fair and reasonable pricing.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS

In its comments on our draft report, CDC described its corrective actions to address each of our
recommendations. CDC stated that it had adjusted its accounts to avoid a potential
Antideficiency Act violation and that it had issued policy and/or conducted training on
appropriations law and severability, contract funding, and contract development and issuance.
The complete text of CDC’s comments is included as the Appendix.




                                                8
APPENDIX
                                                                                                               Page 1 of2


APPENDIX: CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS 



          DEPARTMENT OF HEALTH & HUMAN SERVICES 	                                     Public Health $ervi(:e



                                                                                      Center. IOf Disease Control
                                                                                        and PreVilntion (CDC)
                                                                                      Atlanta GA 30333




        DATE: 	    September 14. 20 I 0

       TO: 	       Daniel R. Levinson
                   Inspector General
                   Department of Health and 1·luman Sl:rvices

        FROM : 	   Director, Centers for Disease Control and Prevention
                   Administrator. Agency for Toxic Substances and Disease Re gistry

       SUBJECT: DIG Draft Report -- "Rel'iew o/the Centers/or Diset/sl! COlI/rolwll1 Prel'l!lllion's
       CO/llpliallce will! Appropriations Laws alld Acquisitioll RegulllfiQl1s-Col1lraclo/, DO. (A-O.J-09­
       01066)

       In the Draft Report Response (A-04-09-0 I 066). the Office of the Inspector General (OIG) made
       sevcr.d recommcndutions 10 the Centers ror Disease Control and Prevention (CDC). TIle CDC
       responses arc below.

       D IG I{cco mm cnd lliion ( I): Detemlinc whether the S 1.599.612 expended outside of the one­
       year period of availability vio latcd the Anti-dcficiency Act. and if so. rcpon the violation as
       rcquired.

       CVC ]{csponsc ( I): CDC concluded thaI thc Contnlcting Officer did allow funds to be
       cxpended outside thc one-ycar period of availability. Corrective ac tions have been taken in
       policy and training to ensure correct application of thc bona fide nCl-d rulc. CDCs Financial
       Management Office (FMO) has adjusted its accounts to properly record funds expended outside
       the one-year period of availability. thus eliminating a potential Anti-Deficiency Act violation.

       OIG ]{ccom nH'ntlulion (2): Develop and implement policies and procedures to address
       complinnce wi th appropriatc statutes and acquisition regulations regarding obligating and
       eXpt'nding funds.

       CDC Response (2): CDC's Procurement and Grants Officc (PGO). in coordination with FMO,
       has isslK-d corrective policy and conducted a series of training sessions on appropriations law and
       severability. The course has been attended by the preponderance of pao Contracting Officers,
       FMO Budgct Analysts. and program personncl who work on contmets.

       O IG I~ecommcndalioll (3) : Implement and monitor the effectiveness of policies and
       procedures for dm:umcnting determinations of fair and reasonable pricing.
                                                                                                   Page 2 of2




                                                                            Daniel R. Levinson
                                                                           September 14.2010
                                                                                         Page 2


C DC Res ponse (3): CDC concurs with the finding and n..'commendation as stated in this section
of the draft rcpon. CDC has implemented the following qual it)' assurance actions for improved
review and eomrol of contract funding:
•	     Issul-d update policy and guidance on contract funding.
•	     Developed and provided training to CDC persOiUlel involved in the development and
       issuance of contracts.
•	     Updated the ConlmCi Rel'iew and Approl'a{ Threshold PGa Swndard Operatillg
       PrQcu/llre, 03-0 I (Revised 4/021 (0) and the Preparing the Negotiation Memoralldum .
       PGO SOfl20 10-05.

We ask that your staff direct any questions or comments to Mr. Michael Tropaucr. CDC's OIG 

Liaison. by telephone at (404) 639-7009. or b)' c-rnail 111 iggao@cdc.gov. 

Th,ok ym' fo, yo", ""iowofthi' import~t m~ ~                                                          



                                            Thomas R. Fneden. M.O , M.P. l-I.




                                                                                               2
